                                                                                          110. 2874    P. 1/7
Sep. 2. 2009 4:31PM



                      NATIONAL RAILROAD PASSENGER CORl'ORATION
                           OFFICE OF THE INSPECTOR GENJi:RAJ.,
                               OFllICE OF INVESTIGATIONS
                                INVESTIGA'l'lVE REPORT

   TITLE: MIsmflnagemellt of Equipment Purchase                  CASE NUMBER: 09·019

   DATE OF REPORT: SeXltcmbel' 2, 2009
    IU!iPOUT PREPARED BY: SSA • • • •
    OTHER ACTIVITY: ClosIng Repol't


    ALLEGATIOli;

                                                   reported that in200 I, Amtrok ordered switchboard
   equipmont from PotomRC          Incorpora:tecl'(F "and Amtrak hos l1overl'ecoivecJ thnt equipment.
   The equipment cost OVe!' $66.000.

    FlNDlNGS OF FACT:


   In 2001,         submitted n project fOI' upgrades to a switching station ill Ivy City. _sc nt out
                                                                                        e of the proposal,
   request fol' proposal and received bids from PTI Mel Geneml Electric. Becaus
   Amtrak purchased n switchboard from PTJ for $66,090.
                                                                                          were ulluble to
   In October 2001, PTI billed, flnd Amtrak paid, $66,090 fol' tlte equipment. Agonts
                                                                                        equipmel\t.
   fmd II prepayment aulllorlzation. Amtflllc paid PTl prior to taking delivel'Y ofllle

                       did not clleck olll'eceipt of the equipment wltillate ill 2006.                   he
   Agents fO\Uld
                                                                                     ,
   became involved with olilot projects and hud not followed up on the order. 1112007
   to               sales manager ofPTl, as to the    location ofille equlpnient.

                                                                                 ane! ))0 indication
   .chec ked the storage warehouse utilized by PTI uud there wns 110 equipment,
                                                                                  was to build Ille
   that the warehouse received tho equi])ment. • discovered the COlll]JUlly tlmt
                                                                        was  afier PTIJmd ordered
   switchboard, ffiM; hlld gone bMkrupt in 2001 or 2002. The bankruptcy
   the equipment fo)' Amtrak alld sent !EM payment.
                                                                                       se Order lllunber
   Agellts were able to obtain a copy oftha electronicully archived contract for Purolw
   'soS5'/1422. A \'evlew of tile contract showed the following:
                                                                                          ll. TIllS proposal
    On A\lgust 3, 2001, PTI submitted a proposal for n Smitll Buildi1lg substation ndditio

                                                       1
Mar.31. 2010 5:34AM                                                                       No. 4785     P. 2



    included an IEM switchboard for a quoted cost of$66,090. The proposal included an equiptnentlist
    from IBM.• wrote the proppsal.

    On August 2$, 2001, Purchase Order number S 055 71422 wai Issued for the switchboard for
    $66,090. TIle ship to address originally listed as Atntrak at 301h Street Station, Philadelphia, PA, had
    black lines through it. Because the address was blacked oUI,.arranged to have the switchboard
    shipped to a warehouse PT1 utilized for storage.

   On September 6, 2001, PTI sentthelrlnvoice number 3796wc to Atntrak forpaymentof$66,090 for
   an item listed as Switchboard for Smith Building.

   On October 9,2001, Atntrak issued check number 00724917 to PTI for payment of$85,710. This
   check Included the payment of $66,090 as billed by PTI.

   On October 31, 2001,.sent a letier to_referencing PTI's job number 3796, stating the
   switchboard was released for manufacture and that. would cOnfll'.tll a delivery date with Cabrey.

   _ : 'sales representative for PTI, told agents that PTI did not build the equipment, but had



                                                                                           _as
   contracted withIEM to build the switchboard. The cost to Atntrak Wll$ $66,090. •provlded lIgents
   with a copy of an ruM invoice sent to PTI for a switchboard at a cost of $57,786. The date on the


   shipper. (Exhibit 1)
                       118_
   invoice was December 7, 2001. The invoice mentioned the job name as Amtrak Unlt Substation. The
   shipper was listed              Agents were unable to obtain any information on                 a


  _said he had assumed Atntrakhad received the switchboard years ago because he had not heard
  any complaints from Cnbrey until recently• •reported he checked the warehouse and could not find
  the switchboard, or any records that the warehouse had received the switchboard.               '

  • admitted that PTI received payment of$66,090 from Amtrak for tho switchboard, and admitted
   Amtrak never received the switchboard, because Pl1 never received it from JEM.

   On November 12, 2008, Agents senl a management referral
   suggesting the following:

   Management should:

      1. Work with PTI management to obtain comparable equipment or credit in amount of$66,090
         for equipment not received.

      2. Familiarize subordInates with section 2.20 of the Procurement Overview ood Planning
         manual that says in part "... no prepayment to vendors withoutwrltten consent of the Vice-
         President of Procurement and Materlals."



                                                     2
.sep. 2. 2009 4:31PM                                                                     No. 2814     P. 217



         3. hnplcll\\lllt a policy or procedure to assure the recoipt and acceptance ofmaterlals purchased
            nnd received, and the timely follow-up Oil problems with payment or delivery.

    011 December 11, 200S,_l'cplled to the referral with the following !lctions:

        1. Engineering wJlll'equest nssistancet\'om Procurement aud Leg!!l to recover ftUlds or receive
           credit from PTt
        2. Eilgincering will direct its managers and their subordinates to l'cvicw the ProclU'cment
           Manual regarding prepayment to vendors.
        3. Engineering has a procedure to pay invoices that requires verification services hnve been
           received and approved from payment. The Deputy Chief ofEnglneer- Structures has directed
           his staff not to order equipment or servicGs for work their department is not managing.
        4. Engineerltlgrecommends that the process where hwoices are submitted clirectlyto ACCOlUlts
           Payable he reviewed flnd safeguards implemcntocl so that none will be paid without
           authoriZlition from the buyer and/or tho recoiver.




                                                         COllll~el ~gatiioll ,advised Agent_tllat



   RECOMMENDATIONS:


                                         pl'Oposuls, and the settlement ugreement be(ween Amtrak and
                                                       'reconunelldation is to close this case, unless new
   01' Hl,,"m"llll jnfiomlntiOIlI~1




   SUllerv/sor's S/guatUl'e:


                                                                        __..::.,___~
   Rogional Supervisor's Slgna!ul'o: __....",f\w.;.,.....:=::...________'----

                                             0'
  Deputy InspectOl' GenerAl/Counsel's Signature:                             @! .~:::z

                                                    3
